No. 19-1138

In the

DeWayne D. Knight,
Petitioner
v.
Thomas Grossman, Jr., M.D.,
Respondent
On A Petition for a Writ Of Certiorari to the United
States Court Of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE

Emily J. Greb
Counsel of Record
Michelle M. Umberger
Michael R. Laing
PERKINS COIE LLP
33 East Main Street
Suite 201
Madison, WI 53703-3095
608.663.7460
Attorneys for Petitioner
DeWayne D. Knight

-1I, Emily J. Greb, counsel for the Petitioner, DeWayne D.
Knight, hereby certify that on this 29th day of June,
2020, I caused a copy of the Reply Brief for Petitioner to

be served through electronic mail, in accordance
with this Court’s April 15, 2020 Order and with
consent of counsel for Respondent, upon the
following:
Jason J. Franckowiak
Otjen Law Firm, S.C.
20935 Swenson Drive, Suite 310
Waukesha, WI 53186
jfranckowiak@otjen.com
RESPECTFULLY SUBMITTED, this 29th day of June,
2020
PERKINS COIE LLP
By /s/ Emily J. Greb
Emily J. Greb
Counsel of Record
Attorneys for Petitioner
DeWayne D. Knight

